<html>
<title> - A SYSTEM IN DISARRAY: THE LACK OF STANDARDIZATION AND TRAINING IN PROTECTING EXECUTIVE BRANCH OFFICIALS</title>
<body><pre>[Senate Hearing 106-1022]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1022

                   A SYSTEM IN DISARRAY: THE LACK OF 
                    STANDARDIZATION AND TRAINING IN 
                 PROTECTING EXECUTIVE BRANCH OFFICIALS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2000

                               __________

                          Serial No. J-106-100

                               __________

         Printed for the use of the Committee on the Judiciary

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-365                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman
MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont
                     Garry Malphrus, Chief Counsel
                    Glen Shor, Legislative Assistant


                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................     1

                               WITNESSES

Ungar, Bernie L., Director, Government Business Operations 
  Issues, General Government Division, U.S. General Accounting 
  Office, prepared statement and attachments.....................     3
Hast, Robert H., Assistant Comptroller General for Special 
  Investigations, U.S. General Accounting office, prepared 
  statement......................................................    15

                                APPENDIX
                         Questions and Answers

Responses of GAO to Questions from the Senate Judiciary 
  Subcommittee on Criminal Justice Oversight.....................    29

 
   A SYSTEM IN DISARRAY: THE LACK OF STANDARDIZATION AND TRAINING IN 
                 PROTECTING EXECUTIVE BRANCH OFFICIALS

                              ----------                              


                        THURSDAY, JULY 27, 2000

                               U.S. Senate,
        Subcommittee on Criminal Justice Oversight,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Strom 
Thurmond (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Senator Thurmond. The subcommittee will come to order.
    There are many symbols which citizens commonly associate 
with their government, and some of the more traditional icons 
are those of the Capitol and the White House. In recent years, 
this list has expanded to include those mysterious looking men 
in black suits and dark sunglasses who spend their days 
whispering into the cuffs of their shirt sleeves and shadowing 
high-ranking government officials. Today's hearing is going to 
focus on just who these personnel are, how well trained they 
are, and how good a job they do in guarding executive branch 
officials.
    At one time, those who had protection assigned to them was 
a relatively short and sensible list of the men and women who 
were truly at the very senior levels of Government or who were 
in possession of highly sensitive information critical to 
national security.
    As someone who has spent a considerable amount of time in 
Washington, it recently struck me that I was seeing more and 
more individuals at less and less senior levels of Government 
being accompanied by protective details. In an effort to 
confirm my observations, I requested the General Accounting 
Office to study this issue.
    After a year of hard work, extensive research, and careful 
analysis, the GAO has completed their report on this matter and 
has discovered some unsettling issues regarding who is 
protected in the executive branch and how they are protected. 
While our witnesses will get into this matter in greater detail 
through their testimony, I do want to highlight some of their 
findings which I find troubling and in need of reform.
    First, there is no standardization in training, tactics, 
equipment, radio frequencies, and so on. Next, there is no 
standardization in who protects executive branch officials. 
Presently, 42 different officials are protected by 27 different 
agencies.
    Next, the costs associated with protecting executive branch 
officials have jumped by almost 50 percent from 1997 to 1999. 
The number of people assigned to dignitary protection jumped by 
73 percent during that same period.
    In some cases, inspector general personnel are used for 
dignitary protection. In many cases, there is no statutory 
authority for those who are providing the protection to 
actually do so. There is a lack of threat assessments, meaning 
there are individuals being protected who may have no 
legitimate need for security or who have too much security.
    This list goes on and on, and is carefully explored in what 
is an excellent GAO report, ``Security Protection-
Standardization Issues Regarding Protection of Executive Branch 
Officials.'' Frankly, I am disturbed by much of what is brought 
to light in this report, which describes a system in disarray.
    It seems that if we are concerned enough about the welfare, 
safety, and security of someone, we should be concerned enough 
to ensure that the protection they are receiving is the best it 
can be. This GAO report clearly indicates that there is an 
overwhelming need to bring reform, standardization, and 
discipline to this system and to do so as quickly as possible.
    Protecting someone goes far beyond simply assigning burly 
and intimidating agents to an official. They involve gathering 
intelligence, conducting threat assessments, doing careful 
advance work, and coordinating extensively with other law 
enforcement agencies. The tactics and strategies involved in 
successful protection operations are probably beyond the 
capabilities of many of the organizations now involved in this 
undertaking, and considerable opportunities exist for 
streamlining the current system.
    Among other steps that need to be taken is stopping the use 
of inspector general personnel for dignitary protection. 
Inspectors general are supposed to be dedicated to fighting 
waste, fraud, and abuse, not serving as bodyguards. And 
furthermore, carrying out dignitary protection duties 
represents a clear conflict of interest.
    I would be inclined toward consolidating the bulk of all 
protective functions for the executive branch under one agency 
or to carefully split threat assessment and protective actions 
between two agencies. The bottom line is that having 27 
different organizations conducting protective duties is 
inefficient, counterproductive, and undermines efforts to 
effectively safeguard those who truly need security.
    I am looking forward to the testimony of our witnesses and 
the suggestions they will have regarding how to address this 
issue. As protection is carried out now, it is done in a 
disorganized and haphazard manner where taxpayer dollars are 
being wasted on security that is likely inefficient or 
ineffective in many cases. More significantly, lives are being 
potentially endangered. Quite obviously, this is a matter which 
must be resolved with the utmost expediency, and the necessary 
reforms should be made in time for the new administration to 
implement.
    I am now pleased to introduce our witnesses for this 
afternoon's hearing: Mr. Bernie Ungar, the Director of 
Government Business Operations Issue, and Mr. Robert Hast, 
Assistant Comptroller General for Special Investigations, both 
of whom serve at the General Accounting Office.
    Before we hear your statements, please allow me to commend 
you on what is a very thorough and well-done report. I 
appreciate all your hard work, and this document will certainly 
be very beneficial to us as we tackle what is a very serious 
issue.
    Mr. Ungar, will you please begin your testimony at this 
time?

  STATEMENT OF BERNIE L. UNGAR, DIRECTOR, GOVERNMENT BUSINESS 
 OPERATIONS ISSUES, GENERAL GOVERNMENT DIVISION, U.S. GENERAL 
    ACCOUNTING OFFICE, WASHINGTON, DC, AND ROBERT H. HAST, 
ASSISTANT COMPTROLLER GENERAL FOR SPECIAL INVESTIGATIONS, U.S. 
           GENERAL ACCOUNTING OFFICE, WASHINGTON, DC

                  STATEMENT OF BERNIE L. UNGAR

    Mr. Ungar. Thank you, Mr. Chairman. Mr. Hast and I are 
pleased to be here this afternoon to help the subcommittee look 
at and assess the issue of protection for high-level executive 
branch officials. We are accompanied this afternoon behind us 
by two of our key staff who worked on this assignment--Mr. 
Thomas Wiley, from the Office of Special Investigations, and 
Mr. Robert Homan, from our General Government Division.
    What I would like to do is summarize, if it is okay with 
you, our statement and, of course, have the entire statement 
submitted for the record.
    In brief, we found that officials in 42 positions at 31 
different agencies receive protection from a variety of 
agencies and protective personnel. As you indicated, security 
is provided on a decentralized basis, with 36 of the officials 
being protected by personnel from their own agencies and 6 
officials being protected by other agencies, such as the Secret 
Service or the Marshals Service or the State Department.
    In the 3-year period that we covered, which was fiscal 
years 1997, 1998 and 1999, agencies reported spending over $74 
million for protection of these high-ranking officials. Costs 
were reported to have increased 49 percent from fiscal year 
1997 to fiscal year 1999, and the number of staff providing 
that protection increased by over 70 percent during that 
period.
    With respect to legal authority, we found that only two of 
the agencies providing the protection, the Secret Service and 
the State Department, had express, specific statutory authority 
to provide protection. The other agencies were providing 
protection under a variety of authorities.
    For example, 11 of the agencies cited deputations from the 
Marshals Service as the authority which they provided 
protection for. And there is possibly a dilemma somewhat there, 
in that the Marshals Service has said that it may not renew 
these deputizations in the year 2001.
    In addition, we found that some agencies lacked specific 
authorities that would be appropriate and helpful and necessary 
in providing protection, such as arrest authority or 
investigative authority. For example, eight agencies said they 
did not have authority to investigate threats against their 
protected officials.
    In terms of threat assessments, we found that these are 
very critical documents or processes which the protection 
agencies--at least the key agencies who have this as a primary 
mission told us very clearly that they are very important for 
determining the need and the level of protection. Despite the 
importance of these documents, we found that only those 
agencies such as the Secret Service or the Marshals Service or 
the State Department and a few others that had protection as 
their primary mission had actually conducted and documented 
detailed threat assessments.
    Most of the agencies that were providing protection had not 
prepared a detailed written document explaining what the 
threats were and discussing how those were going to be 
mitigated. In addition, none of the agencies had made any 
linkage between a threat assessment and the level of protection 
that was being provided. Without that kind of a linkage, it was 
difficult to determine the appropriateness of the level of 
protection being provided, or even the need for that in some 
cases.
    Some of the agencies lacked authority, they said, to 
actually do threat assessments or to gather intelligence about 
potential threats against the protected officials. Most of the 
agencies that we covered said that they really did favor a 
central repository for threat information and for basically 
gathering this information, storing it and disseminating it in 
a uniform way.
    With respect to training, again, that was done on a more 
decentralized basis. Eleven agencies that we covered provided 
their own training. Sixteen of the agencies obtained training 
from another agency or another source in the country. The 
amount and type of training, the source of the training, varied 
among the agencies. Six agencies told us that they had 
particular difficult in getting training for some of their 
people, either because of lack of space in training facilities 
within the Government or lack of funds or lack of time.
    We found that many of the agencies relied on their field 
staffs to provide protection when their protected official 
traveled within the country. Generally, though, we found that 
the field staff received less training than the headquarters 
staff, and in some cases the field staff who provided 
protection received no training.
    Most agencies that we dealt with in our review said that 
they favored standardized training. They felt it was very 
important to make sure that those folks who were providing 
protection receive the training that they need, that they 
receive this consistently, and that they are able to perform in 
the same way in case of events or emergencies, particularly 
when protected officials are appearing jointly at the same 
event.
    In terms of centralized protection--that is, should one 
agency provide all the protection or most of the protection, or 
should it operate in the current decentralized manner--that 
turned out to be a very difficult issue. Most agencies that we 
talked to did not favor centralized protection, for a number of 
reasons. The key reason seemed to be that they felt it was very 
important to develop a high trust level between the protected 
official and the protectors. And they felt that if an outside 
agency were to come in, the same level of trust may not exist. 
In addition, they felt that it would be helpful to have 
knowledge of the agency's program and culture, and also that 
there would be more control over the type of protection and the 
nature of protection if it were within the agencies.
    On the benefits side, there were some that were identified. 
Possibly, there would be more uniform quality or level of 
service if protection were centralized. Equipment would be 
perhaps more evenly available. Procedures would be more 
standardized, and in the field there would possibly be, and 
more likely be more consistent service.
    One issue that was not clear--and we weren't able to 
resolve this in the time that we conducted our review--was 
cost. It wasn't clear, and data aren't available for us to tell 
you whether or not it would be more costly or lesscostly to 
have a central agency providing the protection versus the manner in 
which it is currently being done.
    What does all this mean to us? We concluded that the safety 
of high-level government officials is a very important 
activity. It can certainly affect confidence that the public 
has in government. It is also important from the standpoint 
that many of these protected officials, particularly the 
Cabinet agency heads, are in line for presidential succession, 
and that certainly has national security implications.
    It is very clear that the costs for protection have 
increased significantly over the last few years. It is also 
clear that the protection is provided in a very fragmented way, 
in the sense that there is no one organization or person in the 
executive branch that is responsible for overseeing this issue. 
It is basically up to each agency.
    We felt that both the Congress and the executive branch 
need to have greater assurance that the protection is being 
provided in a rational and a reasoned way, and that right now 
there is not a way for the Congress or the executive branch to 
have confidence that that is the case. That led us to our 
recommendation that the Office of Management and Budget 
designate either an individual or a group of people 
knowledgeable in this area who could study the issues that we 
have identified and raised, and make recommendations both to 
the executive branch and to the Congress.
    We also believe, of course, that the Congress needs to take 
a look at these recommendations, make sure that whatever agency 
or agencies are providing protection have appropriate legal 
authority to do so and they have the necessary resources. OMB 
agreed with our recommendation to it, believed that it would 
take some time to carry it out, but agreed that it would put a 
group together or a designated individual and go ahead and 
study these issues.
    Mr. Chairman, that concludes our summary. We would be happy 
to answer any questions that you might have.
    Senator Thurmond. Mr. Hast, do you have any statement you 
want to make?
    Mr. Hast. I do not. I will just be glad to answer any 
questions you have, Mr. Chairman.
    Senator Thurmond. I will ask some questions and either one 
of you can answer them.
    It is clear that the costs and amount of security 
protection that executive officials receive has increased 
greatly since 1994 and even in the past 3 years. Do you find 
these sharp increases troublesome, especially given the lack of 
overall responsibility for executive protection, and do you 
expect this problem to continue if no action is taken?
    Mr. Hast. Mr. Chairman, I think that the costs need to be 
audited and to be examined. However, I think both the domestic 
and the international climate over the last ten years have 
changed. I think what happened at the World Trade Center and 
what happened in Oklahoma City and what happened to our 
embassies in Africa and the amount of kidnappings that are 
taking place internationally have caused the threat levels to 
have gone up, and I think have influenced the extra cost that 
has gone into protection.
    Senator Thurmond. Currently, the cost of providing 
protection is spiraling and appears to be based more on 
personal preference of the official being protected than the 
need for protection. Do you agree that it is essential that 
there be a uniform, objective method for determining how much 
security, if any, officials in the executive branch need?
    Mr. Hast. Yes, I would say we do.
    Senator Thurmond. How precise is the cost information that 
was provided to you by the agencies you studied?
    Mr. Ungar. Mr. Chairman, they weren't very precise. For the 
most part, they were largely based on estimates. There were 
some agencies that did have very specific information, but a 
number of agencies didn't track these costs systematically, 
particularly in those cases where they used field personnel to 
protect their official when they traveled. Some of the 
information, like I said, was estimated.
    I think overall we would say that the cost information that 
they provided us is very likely to be understated, and it is 
more likely that the cost would be more than the $74 million 
that we identified with the agencies' assistance.
    Senator Thurmond. Your report found that three-fourths of 
agencies do not provide detailed written threat assessments to 
justify the protection that officials receive. Do you think it 
is critical that threat assessments be prepared to ensure that 
resources are being spent wisely and efficiently?
    Mr. Hast. Absolutely, Mr. Chairman. I think the key to the 
amount of protection necessary is the threat assessment. By 
analyzing the threat domestically in various overseas areas, by 
analyzing this and making a threat assessment you are able to 
allocate the proper amount of resources. Without a threat 
assessment, you are really just guessing.
    Senator Thurmond. Would a threat assessment center be an 
asset or simply another drain on money? In other words, what 
guarantees do we have that agencies participating in a center 
will actual share information with one another?
    Mr. Hast. I believe in the area of threat assessment the 
sharing of information is very good, and I think that a 
national threat assessment center would be very useful in 
determining the amount of protection needed by various 
protected individuals.
    Senator Thurmond. The mission of inspectors general has 
nothing to do with security protection. Indeed, because their 
mission is to investigate and audit agencies, there are ethical 
questions with having them protect the chief of the agency they 
review. Wouldn't these concerns be addressed if inspectors 
general were no longer involved in providing security?
    Mr. Ungar. Well, I think the agencies would have to find an 
alternative source to provide the protection. Now, the U.S. 
Marshals Service has said that it would certainly favorably 
consider providing that protection if asked to do so. I think 
that we know that there are a number of concerns right now in 
those situations in which the inspectors general do provide the 
protection with regard to whether or not the role of providing 
this protection compromises their independence in actually 
assessing what is going on within the agencies.
    When the Inspector General Act was created, it was 
anticipated that the inspectors general would be independent of 
the program operations within the agencies, that they would not 
operate programs. And I think it is clear that one might 
construe providing protection as somewhat programmatic in 
nature. And certainly if there was someissue that came up with 
respect to alleged improprieties with respect to the protection itself 
or that was associated with the protected official, there certainly 
could be a question raised there about independence.
    Bob, did you have anything additional?
    Mr. Hast. I think that once they become involved in a 
program, they can no longer audit that program and it 
compromises their independence.
    Senator Thurmond. Almost everyone agrees that training 
needs to be standardized for those who protect executive branch 
officials and that legal authority is currently insufficient. 
Wouldn't the most efficient way to solve these problems be for 
personnel of one agency, such as the Marshals Service, to 
provide protection?
    Mr. Hast. Yes; I think that, given the resources, I think 
one agency would be able to provide protection, and I think 
that even more important than one agency providing protection 
is the standardization of training. I think if one agency 
provided all of the training and all details in a protective 
environment were operating under the same standards and 
guidelines, I think it would cause much better coordination at 
things such as inaugurations, conventions, and other events 
where we had a large number of protectees showing up.
    Senator Thurmond. What would be the effect on executive 
branch protection if the United States Marshals Service stopped 
granting special deputy status to those currently doing 
protection work?
    Mr. Ungar. Mr. Chairman, I think that obviously there would 
be a problem because 11 agencies right now depend upon those 
deputizations for the authority to provide the protection. Of 
course, they have told us that if they don't have that 
deputization, then their ability to actually provide protection 
is going to be quite jeopardized in terms of carrying out those 
key functions of being able to investigate threats, use force 
if necessary, and make arrests if necessary.
    So I think they would be quite concerned about their 
ability, and as I indicated, I think an alternative source 
would have to be provided for those officials that would need 
to continue to be protected.
    Senator Thurmond. If there is no standardization of 
training, use of force policies, and tactics, how well are 
legitimate protective needs of dignitaries being served?
    Mr. Hast. I think it depends on the level of training each 
individual detail receives, and I think at this point we are 
not sure that each protective detail is receiving the same 
level of training as the others. So I think standardizing this 
training under one agency would give us a level of confidence 
in the type of protection that we are providing to these high-
level officials.
    Senator Thurmond. With the lack of standardized training 
and policies that currently exist with executive branch 
security details, did any of the agencies you contacted in the 
course of preparing this report express concerns of conflicts 
that could occur when two or more protective details are at the 
same function?
    Mr. Ungar. Mr. Chairman, we did get on at least one 
occasion expression of a concern about the lack of coordination 
that occasionally or sometimes takes place during events when 
officials from more than one agency appear and you have 
different protective details.
    Apparently, in some cases--and we didn't really review 
these, but we were told by the agencies or by personnel that 
there were some instances where threats were made against one 
official that the other protective force did not know about, or 
things weren't as well coordinated as the folks felt should 
have been.
    Senator Thurmond. If training were to be standardized, I 
suspect many would argue that the Secret Service would be the 
logical agency to conduct the training. Given the existing 
complaints of some agencies about the ability to secure 
protective detail training, how would we make certain that the 
Secret Service or any other agency that was given the training 
mission did not put its own agency's needs before the executive 
protection training it is supposed to give other organizations?
    Mr. Hast. I believe that in passing that type of 
legislation and giving them that authority, there would have to 
be safeguard built into the legislation so that when the 
funding was given, there was a guarantee that they would be 
able to provide the services.
    Mr. Ungar. Also, Mr. Chairman, I know we have spoken to, 
during the course of our review, the Federal agencies that now 
do have the capacity to provide the training. And whether it be 
the Secret Service or the Treasury Department or the State 
Department, none said right now that they have adequate 
capacity to provide this kind of training to the rest of the 
Government.
    So if a mandate of the nature you are speaking about were 
to come about, it would be very critical that there be an 
appropriate consideration of the resources that would be needed 
to provide this protection so that they would be able to do it 
for all the different personnel.
    Senator Thurmond. Your survey of those protected would seem 
to indicate little to no interest in cutting back on the number 
of individuals who are protected or in the number of personnel 
assigned to protective details. More specifically, your report 
states, ``Most of the protected officials or their staffs said 
the individuals holding these positions automatically receive 
security protection because of their visibility and the types 
of issues that they handled.''
    By that reasoning and logic, it would seem that other 
senior officials at executive branch agencies would also be in 
danger. How far down an agency's chain of command should we 
extend protective services? At what point do we say we have 
adequately protected all those potentially at risk because of 
their job?
    Mr. Hast. I believe that we go back to the threat 
assessment, Mr. Chairman. I think that if we are conducting 
proper threat assessments, we should determine which 
individuals need protection, now long they need it, when that 
protection is no longer necessary. Without conducting a 
thorough threat assessment, it is really someone's best guess 
who needs protection.
    Mr. Ungar. Mr. Chairman, also I think, as we point out, 
right now this decision is an agency-by-agency decision. 
Perhaps that is the way it will be in the future, but there 
certainly isn't anybody essentially within the executive 
branch, in the White House, or anywhere else from what we could 
determine that really has any overall responsibility for 
looking at this very issue that you raised.
    Perhaps enunciating an executive branch policy or even some 
kind of a process to perhaps take a look at this--obviously, it 
is going to be very important for certain Cabinet folks who are 
in line of succession, but on the others it would be based on 
the threat assessments that were made.
    Senator Thurmond. Gentlemen, I want to thank you very much 
for your testimony. We appreciate your appearing before us 
today and for all your hard work.
    At this point, I would like to ask unanimous consent that 
two articles be inserted in the record, the first from the 
Washington Times, which reports that the bodyguard for the 
Secretary of Housing and Urban Development has left his weapon 
in the HUD cafeteria on several occasions.
    The second article is from the Washington Post and concerns 
language that is supposed to be contained in a soon to be 
released Appropriations Committee report that directs the FBI 
to get the 
``. . . Hostage Rescue Team out of the dignitary protection and 
event security business.''
    [The articles referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T3365A.001
    
    [GRAPHIC] [TIFF OMITTED] T3365A.002
    
    [GRAPHIC] [TIFF OMITTED] T3365A.003
    
    [GRAPHIC] [TIFF OMITTED] T3365A.004
    
    Senator Thurmond. I would also like to ask that the record 
remain open for one week for additional questions and 
materials.
    Anything further you would like to say?
    Mr. Ungar. No, thank you, Mr. Chairman.
    Mr. Hast. Thank you, Mr. Chairman.
    Senator Thurmond. Thank you, gentlemen, for your appearance 
and your testimony.
    [The prepared statement of Messrs. Ungar and Hast follows:]

    [GRAPHIC] [TIFF OMITTED] T3365A.005
    
    [GRAPHIC] [TIFF OMITTED] T3365A.006
    
    [GRAPHIC] [TIFF OMITTED] T3365A.007
    
    [GRAPHIC] [TIFF OMITTED] T3365A.008
    
    [GRAPHIC] [TIFF OMITTED] T3365A.009
    
    [GRAPHIC] [TIFF OMITTED] T3365A.010
    
    [GRAPHIC] [TIFF OMITTED] T3365A.011
    
    [GRAPHIC] [TIFF OMITTED] T3365A.012
    
    [GRAPHIC] [TIFF OMITTED] T3365A.013
    
    [GRAPHIC] [TIFF OMITTED] T3365A.014
    
    [GRAPHIC] [TIFF OMITTED] T3365A.015
    
    [GRAPHIC] [TIFF OMITTED] T3365A.016
    
    [GRAPHIC] [TIFF OMITTED] T3365A.017
    
    [Editor's note: The U.S. General Accounting Office Report 
``Security Protection Standardization Issuer Regarding 
Protection of Executive Branch Officials,'' dated July 2000, is 
retained in the Committee files.]

    [Whereupon, at 2:33 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


Responses of GAO to Questions From the Senate Judiciary Subcommittee on 
                       Criminal Justice Oversight

    Question 1. Some agencies have expressed concerns about one agency 
providing security protection because they say the protective agents 
should be familiar with the policies, programs, and culture of the 
agency they protect. This appears to be a weak explanation for the 
status quo. Are these factors more important than having an agency 
provide protection that has an extensive background and experience in 
protecting officials?
    Answer 1. We believe that training and experience in providing 
security protection are generally more important than familiarity with 
the policies, programs, and culture of the protected official's 
agencies. However, a familiarity with the policies, programs, and 
culture of the protected officials' agencies could be helpful in cases 
where threats are received by individuals who are affected by those 
agencies' policies and programs.

    Question 2. Does aggressive prosecution of someone responsible for 
an assault on a federal official, even if it is done as part of a 
political protest, play an important part in protection?
    Answer 2. Aggressive prosecution could play an important role for 
some individuals--for example, those who are not totally committed to 
the cause of a protest group. However, for those individuals who 
threaten public officials and are mentally unstable, criminal 
prosecution may not deter their actions. Instead, those individuals are 
often referred to psychiatric facilities.

    Question 3. To what extent are senior government officials using 
protective personnel and details to ``pad'' their entourages, inflate 
their image, and appearance of importance?
    Answer 3. This issue was not an objective of our review. Thus, we 
did not evaluate the extent to which this may be occurring.

    Question 4. How do we prioritize who truly needs protection?
    Answer 4. Protection should be based on threat assessments for 
officials and national security considerations, such as whether 
officials rein the line of presidential succession. Our review found 
that no one in the Executive Branch is currently responsible for 
handling issues relating to the routine protection of Executive Branch 
officials overall. Therefore, we recommended that an individual or 
group appointed by the Director of the Office of Management and Budget 
consider whether the administration should adopt a policy regarding the 
routine protection of top Executive Branch officials.

    Question 5. Who should decide the level of protection that someone 
receives?
    Answer 5. We believe that the unit responsible for protecting 
officials should be responsible for deciding the level of protection to 
be provided.

    Question 6. Even if we were to leave executive protection as a 
decentralized operation as it is now, it seems obvious that there will 
have to be some significant changes to how protective duties are 
executed. Issues such as authority, training, equipment, etc., all must 
be resolved. Can this be done without centralizing protective duties?
    Answer 6. We believe that centralized training and threat 
assessment could be provided without centralizing protection services. 
Congress would need to decide whether one or more agencies should have 
specific statutory authority to provide protection.

    Question 7. Would the interests of Executive Branch security be 
served by requiring the standardization of training, tactics, threat 
assessments, etc.?
    Answer 7. Yes, the establishment of a standardized protection 
training program and additional sharing of protective intelligence 
could enhance security protection for top federal officials. 
Standardized protection training could instruct federal protective 
personnel in the same basic techniques and procedures, which could help 
ensure effective coordination of protection when protective personnel 
from multiple agencies are working at the same event. Further, threat 
assessments that link the level of threat to the size of the protective 
force could help ensure that the level of protection provided and the 
amount of money spent on protection are appropriate.

    Question 8. With proper time and resources to prepare, do you 
believe the Marshals Service has the expertise to protect Executive 
Branch officials, especially given the fact that the Marshals Service 
already has the responsibility for protecting federal judges?
    Answer 8. Yes, we believe that any of the agencies with security 
protection as one of its primary missions, including the Marshals 
Service, has the expertise to protect Executive Branch officials. 
However, the agencies indicated that they would need additional 
resources to assume these additional responsibilities.

    Question 9. Is the traditional model or protection, in other words, 
personnel with weapons body guarding the principal, still a useful way 
of doing business?
    Answer 9. Yes, the traditional model of protection, which includes 
personnel with weapons, is still useful because it provides top 
Executive Branch officials with a certain comfort level in their 
interaction with the public and serves as a deterrent to harm in some 
cases.

    Question 10. In your report, you say that the Secret Service has 
determined that persons who actually pose threats to public officials 
``often do not make threats, especially direct threats.'' If that is 
the case, what good is a threat assessment center? How does one guard 
against these ``stealth threats''?
    Answer 10. The establishment of a threat assessment center would 
provide a formal mechanism to facilitate the sharing of a database of 
protective intelligence among center members. Detecting patterns of 
behavior in known would-be attackers and determining whether a person 
of possible concern to agencies had previously come to the attention of 
any other agency for protective reasons would assist security personnel 
in preparing threatassessments for their protectees. Also, in preparing 
threat assessments and making the database applicable to a wide range 
of protected officials, information on controversial issues and events 
outside the normal realm of law enforcement needs to be included.
    A protective intelligence information-sharing program serves as a 
key component of a comprehensive protection program to prevent targeted 
violence. Agency security officials said that the benefits of 
establishing a central repository of protective intelligence would be 
to (1) provide access to protective intelligence for agencies that 
cannot afford to establish their own intelligence-gathering operations, 
(2) provide uniformity in the dissemination of and access to 
intelligence, and (3) allow agencies to be informed about threats 
against other individuals who are in the presence of their officials.

    Question 11. In your report, you cite a 1998 report by the Secret 
Service which says that ``* * * attackers and would-be attackers often 
consider multiple targets, who may live in different jurisdictions * * 
*.'' Would a threat assessment center be able to gather information 
about a threat against a governor of a state that might become a threat 
against an Executive Branch official visiting that state?
    Answer 11. It would depend on the authority provided to the center 
and the willingness of the participants to share this information. In 
this regard, proposed legislation in the 106th Congress, H.R. 3048, 
would authorize the Secret Service to establish a National Threat 
Assessment Center to facilitate the sharing of threat information by 
federal, state, and local law enforcement agencies with protective 
responsibilities. The House of Representatives passed this bill on June 
26, 2000.

    Question 12. Is there room for a consolidation of training 
facilities? Take for example the State Department. Is there no reason 
that their dignitary protection training could not be contracted out to 
the FBI, Army, or Secret Service?
    Answer 12. Yes, consolidation of training facilities is possible. 
The Secret Service indicated that it was interested in providing 
standardized protection training for federal agencies, and that 
additional employees and funding would be required to create an 
adequate infrastructure to accommodate such an effort. A State 
Department training official said that the State Department could train 
other agencies' protective personnel at the proposed Center for Anti-
Terrorism and Security Training, an interagency facility planned for 
the Washington, D.C., area to be managed jointly by the Diplomatic 
Security Service and the Capitol Police. Marshals Service officials 
said they could conduct training for personnel protecting agency heads 
at the Federal Law Enforcement Training Center (FLETC), in Glynco, GA, 
but thought that the training should take place near Washington, D.C., 
where most of the protective personnel are located. The FLETC Director 
informed us that FLETC currently does not have the facilities, 
expertise, or funding to train all federal personnel security personnel 
at its Glynco facility, but expressed an interest in having FLETC 
coordinate personal security training at a new facility in the 
Washington, D.C., area. We did not obtain information from the Army or 
the FBI on their capacity or willingness to provide standardized 
protections training.

    Question 13. What are the implications of receiving training from 
private security firms that might be made up of retired Secret Service 
agents, Deputy U.S. Marshals, Diplomatic Security Service, and/or those 
who served in the military's Special Operations Command? If there are 
no negative implications, is ``outsourcing'' Executive Branch 
protection training in order to assure standardization and guarantee 
training slots a legitimate option to consider?
    Answer 13. Outsourcing Executive Branch protection training is a 
legitimate option for certain law enforcement agencies, provided the 
training is conducted by an organization with all the proper 
certifications and a proven track record of performance. This approach 
would facilitate standardization for those agencies and guarantee 
training slots, as needed. Further, for those agencies without training 
facilities, private security firms that have their own training 
facilities could provide protection programs that are both tailored to 
meet agencies' specific needs and scheduled at the convenience of the 
participants. A study would have to be done, however, to determine the 
most cost-effective approach.

    Question 14. Your report stated that twenty of the twenty-seven 
agencies that provided protection said they relied on their field 
personnel to provide supplemental protection when officials leave the 
Washington, D.C. area. What guarantee do we have that those out in the 
field have any protective or other specialize training? Is the level of 
protection being provided by field personnel acceptable, or is it 
nothing more than creating an impression of security and protection?
    Answer 14. The amount of protection training received by field 
personnel who provided protection varied considerably among the 27 
agencies. Agencies with security protection as on of their primary 
missions indicated that their field personnel received more training 
and protection experience than field agents at some other agencies. 
During our review, three agencies reported that their field personnel 
who were used to provide protection had received no protection 
training, and two agencies reported that their field personnel received 
2 to 3 days of protection training. This level of training is not 
acceptable because protection concepts and procedures are constantly 
changing. Field personnel providing protection support should 
understand their role as part of a cohesive protection team that is 
providing a secured environment for the protectee.

    Question 15. Your report indicates that state and local law 
enforcement agencies would like to train at a central protection 
training facility. If such a facility were to be established, would it 
be able to accommodate state and local law enforcement officers 
assigned to dignitary details?
    Answer 15. Whether a central protection training facility cold 
accommodate state and local officers would depend on its stated mission 
and the amount of resources provided for its operation. The mission 
could include the training for state and local agencies' protective 
personnel. The goal of centralizing training would be to have all 
protective details (federal, state, and local) using the same 
protection concepts and procedures. This would enable the various 
protective details to better interact and be more cohesive while 
working together.

    Question 16. How substantively different are the skills of someone 
who specializes in protection from someone who is assigned to a 
tactical team? Is someone who is a member of a federal tactical team in 
possession of the requisite skills and tactics required to protect 
someone?
    Answer 16. The skills required for personnel who provide protection 
and those law enforcement officers who are members of a tactical team 
have some similarities, for example, in firearms training, but are 
substantially different. This is because the mission for protective 
details and tactical teams are completely different; thus, the training 
requirements are not the same. The primary mission of personnel 
assigned to protective details is to provide a secure environment for 
the protectee. This is accomplished through threat assessments, 
physical security advances, security postings, protective formations, 
and coordination of security with other law enforcement agencies. The 
primary mission of a tactical team is to respond forcefully, if 
necessary, to a known or potential threat or hostile situation.

    Question 17. Your report recognized ethical issues with Inspectors 
General providing protection to Executive Branch officials. Please 
outline what these issues and problems are.
    Answer 17. A potential conflict of interest could exist by having 
protective and investigative responsibilities within the same office. 
For example, an Office of Inspector General (IG) may be responsible for 
investigating an agency official who is also being protected by IG 
staff. In a March 2000 legal memorandum from the Department of 
Justice's Office of Legal Counsel (OLC) regarding special deputation of 
IG personnel to protect agency heads, the OLC indicated that using IG 
agents to provide protection to agency officials arguably could 
compromise the IG's independence and objectivity in performing an 
agency watchdog function, and that even the appearance of conflicts of 
interest could undermine the effectiveness of an IG in pursuing his or 
her mission. Further, the OLC memorandum cautioned against using IG 
agents to provide protection on a long-term basis because it might 
appear to circumvent Congress' prohibition against vesting program 
operating responsibilities in the IGs.

                                <all>

</pre></body></html>
